APPENDIX

Case: 20-35006, 09/11/2020, ID: 11820892, DktEntry: 13, Page 1 of 1

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
SEP 11 2020
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

CHRISTOPHER R. GRANTON,
Plaintiff-Appellant,
v.

WASHINGTON STATE LOTTERY,

No. 20-35006
D.C. No. 3:16-cv-05420-RJB
Western District of Washington,
Tacoma
ORDER

Defendant-Appellee.
Before: MURGUIA, OWENS, and BENNETT, Circuit Judges.
We construe appellant’s motion to reopen the appeal (Docket Entry No. 12)
as a motion to reconsider the court’s April 24, 2020 order. The motion for
reconsideration is denied. See 9th Cir. R. 27-10.
Appellant’s motion for reconsideration en banc (Docket Entry No. 10) is
denied on behalf of the court. See 9th Cir. R. 27-10; 9th Cir. Gen. Ord. 6.11.
No further filings will be entertained in this closed case.

LCC/MOATT

Case: 20-35006, 04/24/2020, ID: 11671580, DktEntry: 8, Page 1 of 1

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
APR 24 2020
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

CHRISTOPHER R. GRANTON,
Plaintiff-Appellant,
v.

WASHINGTON STATE LOTTERY,

No. 20-35006
D.C. No. 3:16-cv-05420-RJB
Western District of Washington,
Tacoma
ORDER

Defendant-Appellee.
Before: MURGUIA, OWENS, and BENNETT, Circuit Judges.
Upon a review of the record, the response to the March 4, 2020 order to
show cause, and the opening brief filed on February 27, 2020, we conclude this
appeal is frivolous. We therefore deny appellant’s motion to proceed in forma
pauperis (Docket Entry No. 3), see 28 U.S.C. § 1915(a), and dismiss this appeal as
frivolous, pursuant to 28 U.S.C. § 1915(e)(2) (court shall dismiss case at any time,
if court determines it is frivolous or malicious).
DISMISSED.

LCC/MOATT

Case: 20-35006, 03/04/2020, ID: 11617452, DktEntry: 6-1, Page 1 of 2

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
MAR 4 2020
MOLLY C. DWYER, CLERK
U S. COURT OF APPEALS

CHRISTOPHER R. GRANTON,
Plaintiff-Appellant,
v.

WASHINGTON STATE LOTTERY,

No. 20-35006
D.C. No. 3:16-cv-05420-RJB
Western District of Washington,
Tacoma
ORDER

Defendant-Appellee.
Appellant has filed a motion to proceed in forma pauperis in this appeal. A
review of the record reflects that this appeal may be frivolous because this court
has previously determined that the underlying action is barred by Eleventh
Amendment immunity, see Granton v. Wash. State Lottery, No. 16-35793 (9th Cir.
2017), and the Administrative Procedure Act does not apply to actions seeking
review of state, as opposed to federal, agency action. See 5 U.S.C. § 701(b)(1).
This court may dismiss a case at any time, if the court determines the case is
frivolous. See 28 U.S.C. § 1915(e)(2).
Within 35 days after the date of this order, appellant must:
(1) file a motion to dismiss this appeal, see Fed. R. App. P. 42(b), OR
(2) file a statement explaining why the appeal is not frivolous and should go
forward.

LCC/MOATT

Case: 20-35006, 03/04/2020, ID: 11617452, DktEntry: 6-1, Page 2 of 2

If appellant does not move to dismiss this appeal, the court may dismiss the
appeal as frivolous, without further notice. Any determination of whether the
appeal is frivolous will be based on the opening brief filed on February 27, 2020,
and appellant’s statement, if any, in response to this order.
The Clerk shall serve on appellant: (1) a form motion to voluntarily dismiss
the appeal, and (2) a form statement that the appeal should go forward. Appellant
may use the enclosed forms for any motion to dismiss this appeal or statement that
the appeal should go forward.
Briefing is completed.

FOR THE COURT:
MOLLY C. DWYER
CLERK OF COURT

By: Lance C. Cidre
Deputy Clerk
Ninth Circuit Rule 27-7

LCC/MOATT

2

20-35006

FILED
UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF WASHIGTON
AT TACOMA

CASE No. 3:16-cv05420-RJB
ORDER

CHRISTOPHER R GRANTON,
Plaintiff,
v.

WASHINGTON STATE LOTTERY,
Defendant.

THIS MATTER comes before the court on
plaintiffs November 19, 2019 Motion to Reopen
Case. Dkt. 21. The court has considered this motion
and the remaining file.
Originally filed on June 16, 2016, this case
arises from the Washington State Lottery’s alleged
failure to pay an award. Dkt.l. It was dismissed on
June 15, 2016, based on eleventh amendment
immunity. Dkt.2. Defendant then filed a motion to
reopen case. Additional motions, and a first, second,
and third amended complaint. Dkts. 3-11 and 13. His
motion to reopen the case and all other pending
B-l

motions were denied on August 2, 2016. Dkt. 12.
The Plaintiff filed an appeal to the Ninth Circuit
Court of Appeals. Dkt. 14. On March 16, 2017, the
Ninth Circuit Court of Appeals affirmed the
judgement of this court and dismissed the appeal.
Dkts. 16-18. The Plaintiff appealed to the United
States Court and on April 23rd, 2018, the plaintiffs
petition for writ of certiorari was denied. Dkt. 20.
The Plaintiff filed the instant motion on November
14, 2019. He moves to reopen this case, asserting
that he did not understand limited jurisdiction and
“had not properly articulated a contractual
relationship, which would have allowed the Court to
take action for violation of the Constitutional
contract clause by the Washington State Lottery
Commission.” Dkt. 21.
The Plantiffs motion to reopen this case (Dkt.
21.) should be denied. There are no grounds to
reopen the case. The issues here have been raised
before in this court and on appeal with no avail. The
case has been dismissed and closed. The motion
should be denied.
Further, except for a notice of appeal,
additional pleadings filed in this case will be
docketed by the Clerk of the Court, but no further
action will be taken on them.
IT IS ORDERED THAT:
(1) Plaintiffs Motion to Reopen Case (Dkt. 21)
IS DENIED.
(2) Except for a notice of appeal, any
additional pleadings filed in this case will
be docketed by the Clerk of the Court, but
no further action will be taken on them.
B-l

(3) The case IS CLOSED.
The Clerk is directed to send uncertified copies
of this Order to all council of record and to any party
appearing pro se at said party’s last known address.
Dated this 2nd day of December, 2019.

s”

ROBERT J BRYAN
United States District Judge

B-l

FILED
November 30, 2017
Molly C. Dwyer, Clerk
U.S. Court of Appeals
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
No. 16-35793
D.C. No. 3:i6-cv 05420-RJB
Western District of Washington,
Tacoma
ORDER
CHRISTOPHER R. GRANTON,
Plaintiff-Appellant,
v.
WASHINGTON STATE LOTTERY,
Defendant-Appellee.
Before:
LEAVY, W. FLETCHER, and OWENS,
Circuit Judges.
The full court has been advised of the petition
for rehearing en banc and no judge has requested a
vote on whether to rehear the matter en banc. See
Fed R. App. P. 35.
Granton’s petition for rehearing en banc
(Docket Entry Nos. 4, 5, 6, 7, 8, and 9) is denied.
No further filings will be entertained in this
closed case.

C-l

NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
FILED
March 16, 2017
Molly C. Dwyer, Clerk
U.S. Court of Appeals
No. 16-35793
D.C. No. 3:i6-cv-05420-RJB
MEMORANDUM*
CHRISTOPHER R. GRANTON
Plaintiff-Appellant,
v.
WASHINGTON STATE LOTTERY,
Defendant-Appellee.
Appeal from the United States District Court
for the Western District of Washington
Robert J. Bryan, district Judge, Presiding
Submitted March 8, 2017**
Before^

LEAVY, W. Fletcher, and OWENS,
Circuit Judges.

* This disposition is not appropriate for
publication and is not precedent except as provided
by Ninth Circuit rule 36-3.
** The panel unanimously concludes this case is
suitable for decision without oral argument. See
Fed. R. App. P. 34(a)(2).
C-2

Christopher R. Granton appeals pro se from
the district court’s judgment dismissing his action
alleging that the Washington State Lottery
unconstitutionally denied him restitution. We have
jurisdiction under 28 U.S.C.§1291. We review de
novo a dismissal of an action as barred by Eleventh
Amendment
immunity.
Micomonaco
v.
Washington,45 F.3d 316, 319 (9th Cir. 1995). We
affirm.
The district court properly dismissed
Granton’s action against the Washington State
Lottery on the basis of Eleventh Amendment
immunity. See Krainski v. Nevada ex rel. Bd. of
Regents ofNevada System ofHigher Educ., 616 F.3d
963,967 (9th Cir. 2010) (“The Eleventh Amendment
bars suits against the State or its agencies for all
types of relief, absent unequivocal consent by the
state.” (citation omitted)); Nat’l Audubon Society,
Inc. v. Davis, 307 F.3d 835, 848 (9th Cir. 2002)
(recognizing that claims against a state or its
officials seeking damages or restitution are “of
course prohibited by the Eleventh Amendment”
(citation and internal quotation marks omitted));
Confederated Tribes & Bands of Yakama Indian
Nation v. Locke, 176 F.3d 467, 469-70 (9th Cir. 1999)
(recognizing the Washington State Lottery as a state
agency). In light of our disposition, we do not
address the merits of Granton’s claims.
AFFIRMED.

C-3

UNITED STATES DISTRICT COURT WESTERN
DISTRICT OF WASHINGTON AT TACOMA
ORDER DENYING PLAINTIFFS APPLICATION
TO PROCEED IN FORMA PAUPERIS AND
DISMISSING CASE
CHRISTOPHER R. GRANTON,
Plaintiff,
v.
WASHINGTON STATE LOTTERY,
Defendants.
This matter comes before the Court on
Plaintiff Christopher Granton’s Application to
Proceed In Forma Pauperis (Dkt. 1) and on review of
the Complaint (Dkt. l-l). The Court has considered
the relevant record and the remainder of the file
herein.
Standard for Granting Application for IFP.
The district court may permit indigent litigants to
proceed in forma pauperis upon completion of a
proper affidavit of indigency. See 28 U.S.C.§1915(a).
However, the court has broad discretion in denying
an application to proceed in forma pauperis. Weller
v. Dickson,2>\\ F.2d 598 (9th Cir. 1963), cert, denied
375 U.S. 845 (1963).
Application to Proceed IFP. Mr. Granton
states that he has been unemployed due to a workrelated injury since October 2015 and has received
$6600 in public benefits within the last 12 months.
Dkt. 1, at 2. Mr. Granton estimates monthly
D-l

expenses of $1105, has $405 cash on hand, and owns
a car valued at $250.
Decision on Application to Proceed IFP. As
discussed below, the Court lacks jurisdiction over
Mr. Granton’s claim, so the application to proceed in
forma pauperis should be denied without prejudice
as moot. Minetti v. Port of Seattle, 152 F.3d 1113
(9th Cir. 1998), (quoting Tripati v. First Nat’l Bank
& Trust, 821 F.2d 1368, 1370 (9«* Cir. 1987)).
Review of the Complaint. The Court has
carefully reviewed the Complaint. Because Mr.
Granton filed this Complaint pro se, the court has
construed the pleadings liberally and has afforded
him the benefit of any doubt. See Karim -Panahi v.
Los Angeles Police Dep’t, 839 F.2d 621, 623 (9th Cir.
1988).
Mr. Granton alleges that he was denied
payout of a lottery award because of a statute, WAC
315-38-050(3), which he alleges is unconstitutional
as applied. In April 2005, Mr. Granton allegedly
possessed a play slip that matched a winning lottery
number but was not able to collect his lottery award
because he did not possess the corresponding ticket.
Mr. Granton apparently appealed the non-award
administratively without success. He “fe[els] that
the [lottery] machines were not maintained in good
working order” and that the statutory requirement
of WAC 315-38-050(3) is unconstitutional “as
applied.” The statute provides that “[ulnder no
circumstances will a claim be paid for either the
jackpot prize or the second prize without official
Mega Millions ticket matching all game playU”
WAC 315-38-050(3).
Jurisdiction. Federal courts are courts of
limited jurisdiction. Jurisdiction is a threshold issue
that must be raised sua sponte. Steel co. v. Citizens
D-2

for a Better Environment, 523 U.S. 83, 94-95 (1998).
A complaint must be dismissed for lack of subject
matter jurisdiction if, considering the factual
allegations in the light most favorable to the
plaintiff, the action: (l) does not arise under the
Constitution, laws, or treaties of the United States,
or does not fall within one of the other enumerated
categories of Article III, Section 2, of the United
States Constitution; (2) is not a case or controversy
within the meaning of the United States
constitution; or (3) is not one described by any
jurisdictional statute. Baker v. Carr, 369 U.S.
186,198 (1962); D.G. Rung Indus., Inc. v.
Tinnerman, 626 F. Supp. 1062, 1063 (W.D. Wash.
1986).
In this case, there is no showing that the
Court has subject matter jurisdiction. On the Civil
cover Sheet, Mr. Granton has indicated that the
court has federal question jurisdiction. Dkt. 12.
See 28 U.S.C.§1331.
The Complaint makes
reference to WAC 315-38-050(3), not a federal
statute so it appears that the federal question
jurisdiction would stem from the allegation that
WAC 315-38-050(3) is “unconstitutional as applied.”
However, giving Mr. Granton every benefit of the
doubt, the Court cannot discern a constitutional
claim. The Complaint does not articulate how the
state statute is federally unconstitutional as
applied. Therefore, the case should be dismissed for
lack of subject matter jurisdiction.
IFP on Appeal. In the event that Mr. Granton
appeals this order, and/or appeals dismissal of this
case, IFP status should be denied by this court,
without prejudice to Mr. Granton to file with the
Ninth Circuit U.S. Court of appeals an application
to proceed in forma pauperis.
D-3

Therefore, it is hereby ORDERED that:
• Plaintiff
Christopher
Granton’s
Application to Proceed In Forma Pauperis
(Dkt.
1) is DENIED WITHOUT
PREJUDICE AS MOOT;
• This case is DISMISSED WITHOUT
PREJUDICE;
• In the event that Plaintiff Christopher
Granton appeals this order, IFP status is
DENIED by this court, without prejudice
for Mr. Granton to file with the Ninth
Circuit U.S. Court of Appeals an
application to proceed in forma pauperis.
The Clerk is directed to send uncertified
copies of this Order to all counsel of record and to
any party appearing pro se at said party’s last
known address.
Dated this 15th day of June, 2016.
“Sr

ROBERT J. BRYAN
United States District Judge

D-4

Filed 8/3/16
Document 12
UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF WASHINGTON
AT TACOMA
CHRISTOPHER R. GRANTON,
Plaintiff
v.

WASHINGTON STATE LOTTERY,
Defendant
THIS MATTER comes before the Court
following several motions filed by Plaintiff.
The Court previously dismissed Plaintiffs
case without prejudice after Plaintiff failed to state
the jurisdictional basis for his claims. Dkt. 2.
Plaintiff has
since
filed
the
following“COMPLAINT Statute used to gain judgement Ls/'d
in prior courts was unconstitutional as applied”
(Dkt. 3), an application for court-appointed counsel
(Dkt.4), a “Motion to reopen case” (Dkt.5),
“COMPLAINT Statute used to gain judgment [sid
in prior courts was unconstitutional as applied.
Amended)” (Dkt. 6), a praecipe with a single
attachment (Dkt.7), “COMPLAINT Statute used to
gain judgement [sic] in prior courts was
unconstitutional as applied,
(2nd Amended
complaint)” (Dkt.8), a praecipe with several
attachments (Dkt.9), and “COMPLAINT Statute
used to gain judgement [sid was unconstitutional as
applied” (Dkt. 10). The Court has considered these
filings and the remainder of the file.
D-5

Pending before the Court is Plaintiffs motion
to reopen the case (Dkt.5) and Plaintiffs application
for appointed counsel (Dkt.4). Given the sequence
and headings of Plaintiff s other filings, the Court
construes Plaintiffs most recent filing, Dkt. 10, as a
motion to amend the Complaint. See Dkts. 3, 6, 8,
10.
1. Motion to Reopen Case
Plaintiff “humbly ask[s] this court” to
reconsider its dismissal, where Plaintiff has since
realized that he “had missed a key portion of [his]
complaint” and “had not given any thought to
jurisdiction.” Dkt. 5. Plaintiff states that he has
“since amended [his] complaint to address
jurisdiction,” and he asks for leniency due to his
limited education. Id.
To the extent that the Court need consider
whether it has subject matter jurisdiction over the
case, see below, Plaintiffs motion to reopen the case
should be granted. However, for the reasons stated
below, the case should still be dismissed.
2. Motion to Amend the complaint.
The Court previously identified a fatal defect
in Plaintiffs Complaint, namely, the lack of subject
matter jurisdiction. Plaintiff purports to address
this problem by amending the Complaint. The
Amended Complaint alleges jurisdiction based on
Defendant’s constitutional violation of the Contract
Clause: “jurisdiction falls under UNITED STATES
CONSTITUTION Article I Section 10 Clause 1. No
State shall enter into any law impairing contracts.”
Dkt. 10 at 2. It is alleged that WAC 315-38-050(3)
“impairs the [Washington State Lottery] from their
contractual obligation.” Id. It appears that the
Amended Complaint alleges that the contractual
D-6

terms giving rise to the contract are found within
subsections of the WAC. Id.
Considering the subsections alleged in the
Amended Complaint, it is, at best, unclear whether
the Amended Complaint sufficiently alleges a
contractual relationship under the facts alleged.
Nonetheless, even in the Court could have subject
matter jurisdiction based on a Contract Clause
theory, the Court still lacks subject matter
jurisdiction because of Defendant’s Eleventh
Amendment immunity. “An unconsenting State is
immune from suits brought in federal courts by her
own citizens as well as by citizens of another State.”
Pittman v. Oregon Employment Dept., 509 F.3d
1065, 1071 (9th Cir. 2007) (internal quotations
omitted). Eleventh Amendment immunity extends
to state agencies. Pennhurst State Sch. & Hosp. v.
Holdeman, 465 U.S. 89, 101-102 (1984). Defendant
is a state agency that has not consented to be sued,
so the Amended Complaint should be barred from
proceeding.
Also problematic is the State of Washington’s
statute of limitations for contracts claims, six years,
when this incident allegedly occurred in 2005. RCW
4.16.040. See 42 U.S.C.§1988. Giving Plaintiff the
opportunity to further amend the complaint would
be futile.
Plaintiffs motion to amend should be denied.
3. Application to Appoint Counsel.
Plaintiff has requested that the Court appoint
counsel to represent him. Dkt. 4. Plaintiff indicates
that his prior IFP request was denied, that he has
contacted 2 attorneys to represent him without
success, and that neither the EEOC nor the
Washington State Human Rights Commission have
D-7

found reasonable cause to believe that Plaintiffs
allegations are true. Id.
Under 28 U.S.C.§ 1915(e)(1), courts may
request an attorney to represent any person unable
to afford counsel, but courts do so in exceptional
circumstances. Franklin v. Murphy, 745 F.2d 1221,
1236 (9th Cir. 1984).
To find exceptional
circumstances, the court must evaluate the
likelihood of success on the merits and the ability of
the petitioner to articulate the claims pro se in light
of the complexity of the legal issues involved.
Weygandt v. Look, 718 F.2d 952, 954 (9th Cir. 1983).
Plaintiff has not articulated exception
circumstances warranting counsel. Even if Plaintiff
could do so, because the Amended Complaint’s
jurisdictional flaw is fatal, see above, the Court will
not exercise its discretion to appoint counsel.
Plaintiffs motion for appointment of counsel should
be denied.
•k'k'k

THEREFORE, it is HEREBY ORDERED:
(l) Plaintiffs motion to Reopen Case (Dkt.5) is
GRANTED IN PART. The Court has reopened
this case as needed to consider Plaintiffs
Amended Complaint.
(2) Plaintiffs Motion to Amend Complaint (Dkt. 10)
is DENIED.
(3) Plaintiffs Motion to Appoint Counsel (Dkt.4) is
denied.
The case is HEREBY DISMISSED.
D-8

The Clerk is directed to send uncertified
copies of this Order to all counsel of record and to
any party appearing pro se at said party’s last
known address.
Dated this 3rd day of August, 2016.
“sr
ROBERT J. BRYAN
United States District Judge

D-9

THE SUPREME COURT
STATE OF WASHINGTON
September 4, 2008
Christopher R. Granton Jennifer Elias
10413 15th Avenue Ct. S. Attorney General’s Office
Tacoma, WA 98444
PO Box 40100
Olympia, WA 98504*0100
David Ponzoha, Clerk
Court of Appeals, Division II
950 Broadway
Suite 300, MS TB-06
Tacoma, WA 98402*4454
Re-

Supreme Court No. 81451* l*Christopher R.
Granton v. Washington State Lottery
Commission
Court of Appeals No. 35778*0*11

Clerk, Counsel & Mr. Granton:
Enclosed is a conformed copy of the Order
entered following hearing of the above matter on the
Court’s September 3, 2008, Motion Calendar.
Sincerely,
Susan L. Carlson
Supreme Court Deputy Clerk
SLUbbm
Enclosure as referenced.
E-l

THE SUPREME COURT
OF WASHINGTON
NO. 81451-1
ORDER
C/A NO. 35778-0*11
CHRISTOPHER R. GRANTON,
Petitioner
v
WASHINGTON STATE LOTTERY COMMISSION
Respondent
Department II of the Court, composed of Chief
Justice Alexander and Justices Madsen, Chambers,
Fairhurst, and Stephens, at its September 3, 2008,
Motion Calendar, considered whether review should
be granted pursuant to RAP 13.4(b), and
unanimously agreed that the following order. be
entered.
IT IS ORDERED:
That the Petition for Review is denied.
DATED at Olympia, Washington this 4th day
of September 2008.
For the Court

“s r
CHIEF JUSTICE
E-2

WASHINGTON STATE COURT OF APPEALS
Division Two
February 20, 2008
Christopher Granton
10413 13th Avenue Court South
Tacoma, WA 98444
Michael Steven Tribble
Agriculture and Health Division
7141 Cleanwater Dr SW
PO Box 40109
Olympia, WA 98504-0109
CASE#: 35778-0-II
Christopher Granton, Appellant, v. State Lottery
Commission, Respondent
Counsel:
An opinion was filed by the court today in the
above case. A copy of the opinion is enclosed.
Very truly yours,
David C. Ponzoha
Court Clerk
DCP:cjb
Enclosure
cc:

Judge Anne Hirsch
Judge Paula Casey
Administrative Law Judge Jane Habegger
Administrative Law Judge Robert Krabill
F-l

FILED
COURT OF APPEALS
DIVISONII
08 FEB 20 AM 9:12
STATE OF WASHINGTON
BY CB DEPUTY
IN THE COURT OF APPEALS OF THE STATE
OF WASHINGTON
DIVISION II
No. 35778-0-II
PUBLISHED OPINION
CHRISTOPHER R. GRANTON,
Appellant
v
WASHINGTON STATE LOTTERY COMMISSION,
Respondent.
QUINN-BRINTNALL, J.
Christopher
Granton appeals the Office of Administrative
Hearing’s (OAH) grant of summary judgment
dismissing his claims against the Washington State
Lottery Commission. Granton argues that, because
the “draw break” for the mega Millions lottery
occurred early, he was unable to purchase a ticket
that he believes would have been a winning Mega
Millions ticket and that he should be treated as a de
facto ticket holder, Because Granton did not
purchase a valid Mega Millions ticket, he is not
eligible to receive a prize award and we affirm.
F-2

FACTS
On April 8, 2005, at around 6^40 PM, Granton
filled out a lottery play slip1 and handed it to a
convenience store clerk at the Steele Street Texaco
Station in Tacoma in an attempt to purchase a Mega
Millions lottery ticket. The clerk attempted to
process the ticket, but the ticket distribution
machine reported an error, “Draw Break2 - Wager
Refused by Central,” and was unable to complete the
transaction. Administrative R. at 102-03. As a
result, Granton never purchased a ticket for the
April 8, 2005 game,
Subsequently, Granton
contacted the Lottery Commission and sought to
collect the April 8, 2005 Mega Millions jackpot,3
claiming that the numbers on the play slip he used
to attempt to purchase a Mega Millions ticket
matched the winning numbers.
On June 27, 2005, the Lottery Commission
denied Granton’s claim because he could not produce
a winning ticket for the game in question. During
the course of the Lottery Commission’s investigation

1A “play slip” is a form on which a player chooses the game
he would like to play and selects the numbers he wants to use
for that particular game. Administrative R. at 8.
2 A “draw break” is a period of time between games in which
players cannot purchase tickets until the start of the new
game. Former WAC 315-30-040(2) (1992).
3 On April 8, 2005, the Mega Millions jackpot was
$102,000,000. Washington Lottery, Mega Millions, winning
Numbers, Past Winning Numbers,
httpV/www.walottery.com/sections/Lottery
Games/MegaMillion.aspx?Page=PastWinning&year=2005.
F-3

into Granton’s claim,4 it researched and evaluated
the automated terminal transaction list generated
by the ticket distribution machine and found no
“draw break” messages on April 8, 2005, on or
around 6^50 PM. Instead, the Lottery Commission
determined that all “draw breaks” occurred
statewide from 7^45 to 8:01 PM, as scheduled.
Granton requested an administrative hearing on the
matter.
On August 25, 2005, the OAH held a
prehearing conference in which the Lottery
Commission informed Granton that it intended to
move for summary judgment dismissal of his claim.
Granton requested that the Lottery Commission
produce its investigative file regarding his claim and
one year’s worth of data from third-party contractor
G-TECH regarding any errors that occurred on the
ticket distribution machine that failed to process his
play slip. Granton sought to show that the machine
had a history of errors of which the Lottery
Commission should have been aware. The Lottery
Commission
informed
Granton
and
the
Administrative Law Judge (ALJ), Judge Jane L.
Habegger, that it did not have machine data for that
entire period of time because, during the course of
its own investigation, it had only requested ticket
distribution machine data for the week surrounding
April 8, 2005. The Lottery Commission offered to
hand over its investigative file to Granton along with
4 State governmental entities have expended significant
resources and taxpayer dollars reviewing and investigating
Granton’s patently meritless claims. Although it could have
done so under RAP 18.9©(2), the State did not ask this court
to dismiss Granton’s appeal as frivolous. Nor did it request
terms or compensatory damages for being required to respond
to a frivolous appeal. RAP 18.9(a).
F-4

the ticket distribution machine data it had collected
from G-TECH. ALJ Habegger informed Granton
that if he wanted more data than the Lottery
Commission had, Granton needed to subpoena that
information from G-TECH. ALJ Habegger offered to
help Granton draft the subpoenas, but told Granton
that he would have to serve the subpoenas himself.
Subsequently, the Lottery Commission provided
Granton with its complete investigative report,
including the data it had collected from G-TECH.
On August 26, 2005, the Lottery Commission
filed a motion for summary judgment. ALJ Robert
C. Krabill set oral arguments for October 4, 2005.
On September 22, 2005, Granton filed a
request for public records with the OAH. Granton
repeated his request for data from G-TECH. The
Lottery Commission stated that it was willing to
work cooperatively with Granton and G-TECH to
provide Granton with the data he was seeking
should summary judgment be denied and the data
become arguably relevant for a hearing on the
merits of Granton’s claim.
On October 11, 2005, ALJ Krabill issued an
initial order dismissing Granton’s claim because he
never actually purchased a ticket for the Mega
Millions drawing on April 8, 2005, as required by
WAC 315-38-050(3)5 to claim a Mega Millions prize.
5 WAC 315-38-050(3) states in relevant part:
Under no circumstances will a claim be paid for... the
jackpot prize... without an official Mega Millions ticket
matching all game play, serial number, and other
validation data residing in the selling party lottery’s
on-line gaming system computer, and such ticket shall
be the only valid proof of the wager placed and the only
valid receipt for claiming or redeeming any prize.
(Emphasis added.)
F-5

Granton filed a petition for review by the Director of
the Lottery Commission and, on March 7, 3006, the
director of the Lottery Commission issued his final
order, affirming ALJ KrabilTs initial order. On
March 17, 2006, Granton moved for reconsideration.
The Lottery Commission denied the motion.
On March 27, 2006, Granton filed a petition
for judicial review in Thurston County Superior
Court which was assigned to Judge Paula Casey. On
November 15, 2006, the case was reassigned to
Judge Anne Hirsch. Judge Hirsch affirmed the
Lottery Commission’s final order. Granton timely
appeals.
ANALYSIS
STANDARD OF REVIEW
We review an order of summary judgment de
novo. Hisle v. ToddPac Shipyards Corp., 151 Wn.2d
853, 860, 93 P.3d 108 (2004). Summary judgment is
appropriate only if “the written record shows that
there is no genuine issue as to any material fact and
that the moving party is entitled to judgment as a
matter of law.” WAC 10-08*135. We view all facts
in the fight most favorable to the nonmoving party.
Vallandigham v. Clover Park Sch. Dist. No. 400, 154
Wn.2d 16, 26, 109 P.3d 805 (2005). Summary
judgment is appropriate only if reasonable persons
could reach but one conclusion from all the evidence.
-Vallandigham, 154 Wn.2d at 26.
In reviewing an administrative action, we sit
in the same position as the trial court and apply the
Washington Administrative Procedure Act (APA)6
6 Chapter 34.05 RCW.
F-6

standards directly to the agency’s administrative
record. Superior Asphalt & Concrete Co. v. Dep’t of
Labor and Indus., 112 Wn. App. 291, 296, 49 P.3d
135 (2002) (citing Tapper v. Employment Sec. Dep’t,
122 Wn.2d 397, 402, 858 p.2d 494 (1993)), review
denied, 149 Wn.2d 1003 (2003). Under the APA, the
“burden of demonstrating the invalidity of agency
action is on the party asserting invalidity.” RCW
34.05.570(l)(a). According to the APA, we will
reverse an administrative decision that (l) violates
a constitutional provision on its face or as applied,
(2) lies outside the agency’s lawful authority or
jurisdiction, (3) is a result of an erroneous
interpretation or application of the law, (4) is not
based on substantial evidence, or (5) is arbitrary or
capricious. RCW 34.05.570(3); see also Tapper, 122
Wn.2d at 402. We may overturn an agency final
order if it is inconsistent with an agency rule and the
agency fails to explain the inconsistency by stating
facts and reasons demonstrating a rational basis for
the inconsistency. RCW 34.05.570(3)(b).
Like the trial court, we review questions of
law de novo, but we accord substantial weight to the
agency’s interpretation of the statutes it
administers. Superior Asphalt,112 Wn. App. at 296
(citing Everett Concrete Prods., Inc. v. Dep’t ofLabor
& Indus., 109 Wn.2d 819, 823, 748 P.2d 1112 (1988).
VALID TICKET
Granton argues that, because the “draw break”
occurred early and shut down the ticket distribution
machine at the incorrect time, he was unable to
purchase a ticket that he believes would have been
a winning Mega Millions ticket.
Specifically,
Granton argues that the Lottery Commission should
F-7

treat him as a de facto ticket holder because he
entered into a contract with the Lottery Commission
after he filled out his play slip and attempted to
hand his money over to the cashier. The Lottery
Commission responds that a ticket is the only valid
proof that the party placed the wager and the only
valid receipt for claiming or redeeming a prize and,
because Granton admittedly did not purchase a
ticket, he is not entitled to claim the Mega Millions
jackpot. Granton admits that he was unable to
purchase a ticket for the April 8, 2005 Mega Millions
game.
Under WAC 315-38-050(3), “[u]nder no
circumstances will a claim be paid for... the jackpot
prize... without an official Mega Millions ticket...
and such ticket shall be the only valid proof of the
wager placed and the only valid receipt for claiming
or redeeming any prize.” WAC 315-38-050(3)
(emphasis added).
The lottery is contractual in nature. Thao v.
Control Data Corp., 57 Wn. App. 802, 805, 790 P.2d
1239 (1990). Lotteries have elements of a chance, a
consideration, and a prize. Thao, 57 Wn. App. at 805
(quoting Seattle Times Co., v. Tielsch, 80 Wn.2d 502,
507,495 P.2d at 507).
In Thao, the court held that the plaintiff and
his nephew accepted the lottery’s general offer of a
chance and created a valid contract when they (l)
completed and submitted the play slip, and (2) paid
the price of the lottery ticket. 57 Wn. App. at 806.
Unlike Thao, Granton never entered into a
contract with the Lottery Commission. He never
paid the purchase price of the lottery ticket because

F-8

the sale was frustrated.7 Because Granton does not
have a valid ticket and was unable to provide the
requisite consideration necessary to accept the
Lottery Commission’s offer of a chance to win a
prize, he did not enter into a contract with the
Lottery Commission and is not entitled to the Mega
Millions jackpot prize.
ACTION CONSISTENT WITH AGENCY RULES
Granton also contends that the Lottery
Commission’s final order is inconsistent with several
agency rules because the Lottery Commission (l)
permitted the “draw break” to occur early, contrary
to former WAC 315-30'040(2);8 (2) failed to comply
with discovery rules, contrary to WAC 315-20-1159
7 Granton repeatedly argues that whether he had a ticket is
irrelevant because he was unable, through no fault of his own,
to purchase a ticket because an early “draw break” frustrated
his purchase. But whether the ticket distribution machine was
operating properly or whether the “draw break” did in fact
occur early are not issues of material fact, because successfully
purchasing a ticket is a requirement for collecting or claiming
a Mega Millions ticket. Reformer WAC 315-30-050(3) (1989).
8 Former WAC 315-30*040(2) provided:
The director shall announce for each type of on-line
game the time for the end of sales prior to the drawings.
[Ticket distribution machines] will not process orders
for on-line tickets for that drawing after the time
established by the director.
9 WAC 315-20-115(1) provides in relevant part:
Upon request by any party to the adjudicative
proceeding, copies of all materials to be presented at
the adjudicative proceeding shall be provided to the
requester within seven days of the request but, for good
cause shown, not less than three business days prior to
the date of the hearing.
F-9

and (3) failed to honor his public disclosure request,
contrary to WAC 315-12-050,1° WAC 315-12-110,11
RCW 42.56.550,12 and RCW 42.56.52013
But
Granton did not purchase a valid Mega Millions
ticket as required by former WAC 315-30-050(3)
(1989), which is a condition precedent to collect or
claim a Mega Millions prize.
Moreover, any
deficiencies in the Lottery Commission’s process

10 WAC 315-12-050 states:
Public Records Available.
All public records of the commission and
director as defined in WAC 315-12-020(2) are deemed
to be available for public inspection and copying
pursuant to these rules, except as otherwise provided
by RCW 42.17.260, 42.17.310, 42.17.330, WAC 315-12100, and other applicable laws.
11 WAC 315-12-110 states:
Denial of Request.
Each denial of a request for a public record
shall be accompanied by a written statement to the
requestor clearly specifying the reasons for the denial,
including a statement of the specific exemption
authorizing the withholding of the record and a brief
explanation of how the exemption applies to the
record withheld. Such statement shall be sufficiently
clear and complete to permit the director or his or her
designee to review the denial in accordance with WAC
315-12-120.
12 RCW 42.56.550 requires an agency to show cause as to why
it refused a public disclosure request.
13 Under RCS 42.56.520, agencies must respond promptly to
requests for public records. Within five days of receiving a
request, the agency must respond by either (l) providing the
record, (2) acknowledging that the agency received the
request and provide an estimate of the time it will require to
respond to the request, or (3) deny the public record request.
F-10

occurred after Granton failed to purchase the
requisite ticket, and we need not reach these issues.
JUDICIAL REASSIGNMENT AND ANALYSIS
Lastly, Granton argues that it was improper
for ALJ Krabill to hear his case because ALJ
Krabill14 allegedly had no previous experience
reviewing an agency final order. Granton also
alleges error with the superior court’s analysis when
it affirmed the agency’s final order. But we “sitD in
the same position as the trial court and apply the
APA standards directly to the administrative record
in front of the agency.” Superior Asphalt, 112 Wn.
App. at 296. Accordingly, although our review of the
record reveals no deficiencies, any deficiencies in the
superior court process would not alter the result.
See Superior Asphalt, 112 Wn. App. t 296.
CONCLUSION
Granton did not purchase a Mega Millions
ticket and was not entitled to a jackpot prize. We
note that the State governmental entities have
expended significant agency and taxpayer resources
investigating and reviewing Granton’s patently
meritless claims. Although it could have done so, the
Attorney General’s Office did not move to have this
court dismiss Granton’s appeal as frivolous. RAP
18.9(c)(2). Nor did it request terms or compensatory
14 Although Granton argues that ALJ Krabill’s inexperience
prejudiced his case, Thurston County Superior Court Judge
Hirsch actually heard the oral arguments and signed the
order affirming the Lottery Commission’s final order. ALJ
Krabill was the ALJ who initially heard Granton’s case.
F-ll

damages for being required to respond to a frivolous
appeal. RAP 18.9(a). Owing to the Lottery
Commission’s solicitous consideration for Granton’s
claim, Granton was apparently unaware of the costs
incurred or that he could be required to reimburse
the State for having to respond to a frivolous appeal.
Like other State governmental entities we have been
forced to expend precious resources reviewing this
patently frivolous action. Nevertheless, at this time,
we have decided to exercise our discretion and
decline to impose sanctions for Granton’s frivolous
appeal sua sponte. We emphasize that our decision
on this point is an exercise of discretion and leniency
that may not be repeated in future frivolous appeals
such as this one.
We affirm.
“s r
QUINN-BRINTNALL, J.
We concur:
“Sr

ARMSTRONG, J.
“sr
VAN DEREN, A.C.J.

F-12

Hearing is Set
Date: December 15, 2006
Time: 1:30 p.m.
The Honorable Anne Hirsch
FILED December 15, 2006
Superior Court
Betty J. Gould
Thurston County Clerk
STATE OF WASHINGTON
THURSTON COUNTY SUPERIOR COURT
NO. 06-2-00572-1
FINDINGS OF FACT, CONCLUSIONS OF LAW
AND ORDER ON JUDICIAL REVIEW
CHRISTOPHER R. GRANTON
Petitioner
v.
WASHINGTON STATE LOTTERY COMMISSION
Respondent
This matter came regularly on for hearing on
December 15, 2006, before the above-entitled court
pursuant to the Washington Administrative
Procedures Act.
The State of Washington,
Washington’s Lottery (Lottery) was represented by
ROB MCKENNA, Attorney General, and MICHAEL
S. TRIBBLE, Assistant Attorney General.
Petitioner Christopher R. Granton appeared pro se.
The Court, having reviewed the Administrative
G-l

/

Record, pleadings on file, and having heard
arguments, and in all premises being fully advised,
hereby makes the following:
I.
FINDINGS OF FACT
I.
Lottery applied the law appropriately when it
dismissed Mr. Granton’s claim on summary
judgment.
II.
The Final Order is supported by substantial
evidence.
III.
Lottery decided all issues requiring resolution
because all other issues raised by Mr. Granton were
not material.
IV.
The Final Order is not inconsistent with
agency rules.
V.
The Final Order is not arbitrary or capricious.
From the foregoing Findings of Fact, the
Court makes the following:

G-2

II.

CONCLUSIONS OF LAW

I.
The Court has jurisdiction over the parties
and subject matter.
II.
Mr. Granton has failed to establish he is
entitled to relief under RCW 34.05.570(3).
From the foregoing Findings of Fact and
Conclusions of Law, the Court enters the following:
ORDER
IT IS HEREBY ORDERED, ADJUDGED
AND DECREED that the Washington Lottery Final
Order of March 7, 2006 issued in the matter of
Christopher Granton, Docket No. 2005-LTY-002 is
affirmed and Mr. Granton’s Petition for Judicial
Review is dismissed.
“sr
JUDGE ANNE HIRSCH
Presented by:
ROB MCKENNA
Attorney General
MICHAEL S. TRIBBLE
WSBA# 30508
Assistant Attorney General
Presented as to Form:
CHRISTOPHER. GRANTON, Petitioner
6-3

MAILED
October 11, 2005
Olympia, OAH
STATE OF WASHINGTON
OFFICE OF ADMINISTRATIVE HEARINGS
FOR THE WASHINGTON STATE LOTTERY
INITIAL ORDER ON THE LOTTERYS MOTION
FOR SUMMARY JUDGMENT
Docket No. 2005-LTY-002
In the matter of
Christopher R. Granton,
Appellant
On October 4, 2005, Robert C. Krabill,
Administrative Law Judge, conducted a hearing on
this matter on the Washington State Lottery’s
Motion for Summary Judgment. The Appellant,
Christopher R. Granton, appeared and represented
himself.
Michael Tribble, Assistant Attorney
General, appeared and represented the Washington
State Lottery (the “Lottery”).
ISSUE
Whether the Lottery is entitled to summary
judgment on Mr. Granton’s claim for a prize when
he never purchased the winning ticket.
RESULT
The Lottery’s motion for summary judgment
is GRANTED.
H-l

FINDINGS OF FACT
I took no testimony during the hearing, but,
because this is the Lottery’s’ motion for summary
judgment, I accepted as fact Mr. Granton’s version
of events as presented in his declarations and other
evidence. For purposes of summary judgment, I
considered the following listed documents:
1. Page 11, G-Tech Report of April 8, 2005,
Agent No. 219907
2. Declaration of Phyllis Monroe, September
23, 2005
3. Declaration of Christopher Granton,
September 15, 2005
4. Response to Motion for summary
Judgment, September 6, 2005
5. Marci Savage Letter to Christopher
Granton, April 20, 2005
6. Ceil Buddeke Letter to Christopher
Granton, June 27, 2005
7. Copy of Play Slip, received August 29,
2005
8. Motion of Summary Judgment, August 26,
2005 with internal attachments A-C
9. Mari Jo Nagel Letter to Christopher
Granton, May 3, 2005
For summary judgment purposes only. I make
the following findings of fact:
1.

Around 6:40 PM on April 8, 2005, Mr.
Granton entered the “Texaco Food Mart”
with a wrinkly play slip and $4 intending
to buy Mega Millions lottery tickets for the
upcoming drawing.
Declaration
of
Christopher Granton, September 15, 2005,
H-2

2.

3.

4.

Summary Judgment Exhibit 3, page 2.
When he attempted to purchase tickets
using the wrinkly play slip, the machine
could not read it, so he stepped out of line
and created a new play slip using the same
numbers. Id. He got back in line and
waited his turn to buy tickets. Id.
When it was Mr. Granton’s turn, he
handed clerk Phyllis Monroe his newly
created play slip. Id. She attempted to
process the ticket, but machine number
219907 rejected his play. Declaration of
Phyllis Monroe, September 23, 2005,
Summary Judgment Exhibit 2, page 2.
The machine’s screen read “Draw Break Wager Refused by Central”. Summary
Judgment Exhibit 3, page 2. It was
6^46.29 PM Page 11 of G-Tech Report for
April 8, 2005, Agent No. 219907, Summary
Judgment Exhibit 1.
Mr. Granton felt frustrated because he
believed the machine wrongly refused his
wager, but he never bought a ticket for the
April 8, 2005, Mega Millions lottery using
the numbers on the play slip.
The winning numbers for the April 8,
2005, drawing were 5-13-17*33-35 with a
Mega
Ball
of
35.
See
http7/222.walotterv.com/Sections/Lotterv
Games/MegaMillion.aspx?Page=PastWin
ning&vear=2005, website visited October
4, 2005. Those winning numbers match
Panel B on Mr. Granton’s play slip, copy
of Play Slip, summary Judgment Exhibit
7.
H-3

5.

Mr. Granton has appealed the Lottery’s
refusal to pay him the jackpot for the April
8, 2005 drawing.
CONCLUSION OF LAW

Jurisdiction
1. The Washington State Lottery (the
“Lottery), through its director, has the
authority to “supervised and administer
the operation of the Lottery.”
RCW
67.70.050. The director has the authority
to investigate and conduct hearings, and
he may delegate his authority to conduct
hearings to an administrative law judge.
RCW 67.70.060. Those proceedings should
be conducted in accordance with the
Administrative Procedure Act, Chapter
34.05 RCW. RCW 67.70.060(5); WAC 31520-005.
Summary Judgment
2. The Model Rules of Procedure, WAC 10 08
et seq., apply to all Lottery hearings. WAC
315-20-005. The Model Rules provide for
summary judgment when the record
shows “no genuine issue as to any material
fact and the moving party is entitled to
judgment as a matter of law.” WAC 10-081351 cf. Magula v. Benton Franklin Title
Co., Inc., 131 Wn. 2d 171, 182, 930 P. 2d
307 (1997).
Effect of No Ticket
3. The Lottery will only pay a jackpot prize,
if the claimant presents “an official Mega
H-4

Millions ticket matching all game play,
serial number, and other validation data”
in the Lottery’s computer system. WAC
315-38-050(3). The ticket itself is the “only
valid proof of the wager placed and the
only valid receipt for claiming or
redeeming any prize.” Id.1 Admittedly,
Mr. Granton did not purchase and does not
possess a valid winning ticket for the April
8, 2005 Mega Millions drawing. Therefore,
he has no valid proof that he made a wager
for that drawing, and he lacks the
necessary receipt for claiming any prize,
including the jackpot, under WAC 315*38050(3).

1 In its entirety, WAC 315-38-050(3) reads as follows:
Under no circumstances will a claim be paid for either
the jackpot prize or the second prize without an official Mega
Millions ticket matching all game play, serial number, and
other validation data residing in the selling party lottery’s on­
line gaming system computer, and such ticket shall be the
only valid proof of the wager placed and the only valid receipt
for claiming or redeeming any prize.
H-5

4.

Play slips have no prize value. WAC
315-38-050(5).
Play slips do not
“constitute evidence of purchase or
number selections.”
Id.2 While Mr.
Granton has a play slip showing the
winning number selections for the April 8,
2005, Mega Millions drawing, he does not
have a Mega Millions ticket matching all
game play, serial number, and other
validation data in the Lottery’s computer
system. Under WAC 315-38-050(5), his
play slip does not show purchase or
number selections. But the play slip is Mr.
Granton’s only evidence of the numbers he
picked. Therefore, under WAC 315-38*
050(5), Mr. Granton has not established
that he picked the winning numbers, even
with the liberal treatment of his evidence
provided in a summary judgment motion.

Conclusion
5. Because Mr. Granton lacks an authentic
winning Mega Millions ticket, he is not
entitled to the jackpot prize he claims as a
matter of law under WAC 315-38-050(3).
While I sympathize with Mr. Granton’s
profound frustration and disappointment,
2 In its entirety, WAC 315*38-050(5) reads as follows:
Purchasers may submit a manually completed Mega
Millions play slip to a Mega Millions agent or retailer to have
issued an official Mega Millions ticket. Mega Millions play
slips shall be available at no cost to the purchaser and shall
have no pecuniary or prize value, and shall not constitute
evidence of purchase or number selections. The use of
mechanical, electronic, computer generated or any other nonmanual method of marking play slips is prohibited.
H-6

he has not raised a genuine issue of
material fact that would result in any
other conclusion. Therefore, the Lottery is
entitled to summary judgment under WAC
10-08-135.
INITIAL ORDER
IT IS HEREBY ORDERED that this matter
be DISMISSED.
SERVICED on the date of mailing.

“sr
Robert C. Krabill
Administrative Law Judge
Office of Administrative Hearings
NOTICE TO THE PARTIES
Pursuant to RCW 34.05.464 and WAC 10-08211, any party to an adjudicative proceeding may file
a petition for review of an initial order by the
Director of the Washington State Lottery. The
petition for review shall be filed with the agency
head within twenty (20) days of the date of service of
the initial order. Copies of the petition must be
served upon all other parties or their
representatives at the time the petition is filed. The
petition for review must specify the portions of the
initial order to which exception is taken and must
refer to the evidence of record which is relied upon
to support the petition.

H-7

Any party may file a reply to a petition for
review. The reply shall be filed with the office where
the petition for review was filed within ten days of
the date of service of the petition and copies of the
reply shall be served upon all other parties or their
representatives at the time the reply is filed.
A copy was sent to:
Appellant^
Christopher R. Granton
10413 13th Avenue Ct. S.
Tacoma, WA 98444
Assistant Attorney General:
Michael Tribble
Assistant Attorney General
Office of the Attorney General
PO Box 40100
Olympia, WA 98504-0100
Lottery Representative:
Ceil Buddeke, Legal Counsel
Washington State Lottery
PO Box 43025
Olympia, WA 98504-3025
Candace Martin, Paralegal
Washington State Lottery
PO Box 43025
Olympia, WA 98504-3025

H-8

STATE OF WSHINGTON

)
)

COUNTY OF THURSTON

)

ss.

I hereby certify that I have this day served a copy of
this document upon all parties of record in this
proceeding by mailing a copy thereof, properly
addressed with postage prepaid, to each party to the
proceeding or his or her attorney or authorized
agent.
Dated at Olympia, Washington, this 11th day of
October, 2005.
Shiela Koochagian
Representative, Office of
Administrative Hearings

H-9

WASHINGTON STATE LOTTERY
In the Matter of
OAH DOCKET NO. 2005-LTY-002
CHRISTOPHER R. GRANTON,
Appellant
FINAL ORDER
The above-entitled matter coming
regularly before the Director, and it appearing-

on

1. That a hearing was held on October 4,
2005, on Washington State Lottery’s
Motion for Summary Judgment on the
appeal of Christopher R. Granton of
Lottery’s refusal to grant Mr. Granton’s
claim for a lottery prize in the Mega
Millions game. Lottery denied the claim
because Mr. Granton did not present a
ticket that he had purchased for the game.
2. That on October 11, 2005, Administrative
Law Judge Robert C. Krabill entered his
initial Order on the Lottery’s Motion for
Summary Judgment,
granting the
Lottery’s motion and dismissing Mr.
Granton’s appeal; and
3. Mr. Granton, on October 12, 2005,filed a
Petition for Review from the Initial Order,'
and
4. That the entire record in this proceeding
was presented to the Director for final
J-l

decision, and the Director having fully
considered said record and being fully
advised in the premises;
NOW, THEREFORE,
IT IS HEREBY ORDERED that the
Administrative Law Judge’s Initial Order heretofore
made and entered in this matter be, and the same
hereby is, affirmed and adopted as the Final Order
of the Director, and that the appeal of Christopher
R. Granton, challenging the Lottery’s decision to
deny his prize claim, is DISMISSED.
DATED
AT Olympia, Washington this
7th day of March, 2006.
S”

Christopher Liu, Director
Washington Lottery
Copies to:
Christopher Granton, Appellant
Robert Krabill, ALJ, OAH
Michael Tribble, Assistant Attorney General
Mary Jo Nagel,
Customer Service Supervisor, Lottery
Barbara Cleveland, Executive Assistant,
OAH
Pursuant to RCW 34.05.542, any appeal from this
Order must be filed in superior court and served
within thirty days.

J-2

AGENCY:

WASHINGTON STATE
LOTTERY
COMMISSION

PROGRAM:

Prize Denial

Notice of Hearing:

OAH to send

Statutory Authority:

Chapter 67.70 RCW

Rules:

WAC 315

Record:

Tape

Order:

Initial Order

Serving Order

OAH serves with cover
letter explaining appeal
rights. Attach WAC 1008-211(2).

Appeal rights:

RCW 34.05.464;
RCW 34.05.542;
and WAC 10-08-211(2).

Special Instructions:

Send copy of all notices
and orders to:
Ceil Buddeke,
Legal Counsel
Washington Lottery
Commission
PO Box 43025
Olympia, WA 98504-3025
Send orders via email
J-3

attachment to
Ceil Buddeke atCbuddeke@walotterv.com
and Candace Martin at:
Cmartin@walotterv.com
Sending File:

Ceil Buddeke,
Legal Counsel
(see address above)
(360)664-4833

Travel Vouchers:

Candace Martin,
Legal Assistant
(see address above)

Billing Contact:

Margo Driver
(360) 664-4775

Agency Contact:

Candace Martin
(360) 664-4831

References:

Telephone NOH
In Person NOH

Back to Table of Contents

j-4

